HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services - Evanston Northwestern Healthcare, Evanston,
Illinois,"(A-05-03-00056)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - Evanston Northwestern Healthcare, Evanston, Illinois," (A-05-03-00056)
August 29, 2003
Complete
Text of Report is available in PDF format
(346 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a nationwide analysis of Medicare
reimbursement for outpatient cardiac rehabilitation services requested by the Centers for Medicare and Medicaid Services
to determine the level of provider compliance with national Medicare outpatient cardiac rehabilitation policies.  The
objective of our review was to determine whether Medicare properly reimbursed Evanston Northwestern Healthcare for outpatient
cardiac rehabilitation services.  Our review disclosed that the hospital did not designate a physician to directly
supervise the services provided by its cardiac rehabilitation program.  In addition, contrary to current Medicare
requirements, we could not identify the physician professional services to which the cardiac rehabilitation services
were provided “incident to.”  Also, the hospital claimed and received Medicare reimbursement for outpatient cardiac
rehabilitation services which did not meet Medicare coverage requirements, which may not have been supported by medical
record documentation, or which were otherwise unallowable.  We recommended that the hospital: (1) work with its
fiscal intermediary to ensure that its outpatient cardiac rehabilitation program is being conducted in accordance with
the Medicare coverage requirements for direct physician supervision and for services provided “incident to” a physician’s
professional service; (2) work with its intermediary to establish the amount of repayment liability for services provided
to beneficiaries where medical documentation may not have supported Medicare covered diagnoses and for services not otherwise
allowable; (3) bill evaluation and orientation visits only when performed by physician personnel in accordance with local
medical review policy; and (4) implement controls to ensure that medical record documentation is maintained to support
Medicare outpatient cardiac rehabilitation services.